           STATUTORY AND ADMINISTRATIVE
                 RESPONSIBILITIES

The Inspector General Act of 1978 (Public Law 95-452), as amended, sets forth specific re-
quirements for semiannual reports to be made to the Chairman for transmittal to the Con-
gress. A selection of other statutory and administrative reporting and enforcement respon-
sibilities and authorities of the Office of Inspector General (OIG) are listed below:

                    OIG AUDIT AND MANAGEMENT REVIEW
Public Law (P.L.) 97-255    Federal Managers’ Financial Integrity Act of 1982
P.L.          1041-34       Debt Collection Improvement Act of 1996
P.L.          101-576       Chief Financial Officers Act of 1990
P.L.          102-486       Energy Policy Act of 1992
P.L.          103-62        Government Performance and Results Act of 1993
P.L.          103-355       Federal Acquisition Streamlining Act of 1994
P.L.          103-356       Government Management Reform Act of 1994
P.L.          104-106       Information Technology Management Reform Act of 1996
P.L.          104-208       Federal Financial Management Improvement Act of 1996
P.L.          107-289       Accountability of Tax Dollars Act of 2002
P.L.          107-347       Federal Information Security Management Act of 2002
General Accounting Office Government Auditing Standards

             CRIMINAL AND CIVIL INVESTIGATIVE AUTHORITIES
Title 5                     United States Code, section 552a
Title 18                    United States Code, sections on crime and criminal
                            procedures as they pertain to OIG’s oversight of departmental
                            programs and employee misconduct
Title 31                    United States Code, section 3729 et seq., the False Claims Act
                                                                    ig
                                             October 2004 SemiAnnual Report




                                           TABLE OF CONTENTS
                                                                                                                                             Page

COMMISSION’S TOP MANAGEMENT CHALLENGES . . . . . . . . . . . . . . . . . . . . . .                                                                  1
Management Challenge: Competitive Sourcing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                      1
Management Challenge: Improved Financial Performance . . . . . . . . . . . . . . . . . . . . . . .                                                  2
Management Challenge: Budget and Performance Integration . . . . . . . . . . . . . . . . . . . .                                                    3
Management Challenge: Expanded Electronic Government . . . . . . . . . . . . . . . . . . . . . .                                                    3
Management Challenge: Strategic Management of Human Capital . . . . . . . . . . . . . . .                                                           5

COMMISSION’S ORGANIZATIONAL STRUCTURE . . . . . . . . . . . . . . . . . . . . . . . .                                                               7

COMMISSION PROFILE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                            8

THE OFFICE OF INSPECTOR GENERAL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

AUDITS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   12
Summary of Significant Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      12
  Evaluation of the U.S. International Trade Commission’s Discretionary Document
   and Mail Distribution Program, Audit Report OIG--AR--01--04
   (May 26, 2004) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            12
Audit Follow-up . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        14
  Evaluation of the U.S. International Trade Commission’s Fiscal Year 2003
   Information Security Program and Practices, Audit Report OIG--AR--03--03
   (September 22, 2003) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  14
  Audit of the U.S. International Trade Commission’s Financial Management
   System Control, Audit Report OIG--AR--02--03 (July 24, 2003) . . . . . . . . . . . . . . .                                                      14
  Evaluation of the Commission’s Travel Program, Audit Report
   OIG--AR--03--02 (September 30, 2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                14
  Evaluation of the USITC’s Records Management, Audit Report
   OIG--AR--05--00 (March 7, 2001) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                           15

INSPECTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        16
Inspection Report List . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             16
  U.S. International Trade Commission’s Implementation of the Continued
    Dumping and Subsidy Offset Act of 2000, Inspection Report OIG--IR--01--04
    (September 30, 2004) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 16
Actions on Prior Inspections . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 18
  U.S. International Trade Commission’s Occupant Emergency, Inspection Report
    OIG--IR--01--03 (March 28, 2003) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                           18

                                                                          i
                                                                    ig
                                            October 2004 SemiAnnual Report




                            TABLE OF CONTENTS-Continued
                                                                                                                                            Page


INVESTIGATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
  Summary of Investigative Activity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

OTHER ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  20
Regulatory Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             20
Government Accountability Office (GAO) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                              20
Peer Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   20
Liaison Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      21

REPORTING REQUIREMENTS INDEX . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

TABLE 1: AUDIT REPORTS WITH QUESTIONED COSTS                                                                    . . . . . . . . . . . . . . . . . 24

TABLE 2: AUDIT REPORTS WITH RECOMMENDATIONS THAT
 FUNDS BE PUT TO BETTER USE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

GLOSSARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26




                                                                         ii
                                          ig
                           October 2004 SemiAnnual Report




                      COMMISSION’S TOP
                   MANAGEMENT CHALLENGES
The “Top Management Challenges” facing the Commission as identified by the OIG—as
well as recent OIG activities relating to each challenge—are discussed below. Through
audits and inspections, the OIG has been helping the Commission to address these
challenges.
We discuss the Commission’s management challenges within the framework of the
President’s Management Agenda (PMA) that included five somewhat interrelated
Government-wide initiatives: (1) Competitive Sourcing, (2) Improved Financial
Performance, (3) Budget and Performance Integration, (4) Expanded Electronic
Government, and (5) Strategic Management of Human Capital.
Because the Commission was not among the 24 PMA agencies and has not established
PMA deliverables and time lines, neither the Commission nor the OIG has attempted to
score its PMA progress. However, the Commission’s Fiscal Year (FY) 2004 and FY 2005
Budget Justifications, as well as its strategic planning documents, expressed the
Commission’s commitment to the spirit of the five PMA initiatives. OIG work addressing
the Commission’s adherence to that spirit is discussed below.

Management Challenge: Competitive Sourcing. To improve the performance and
efficiency of activities that are commercial in nature, the PMA calls for departments and
agencies to compare their commercial activities with those of the private sector and
determine whether the private sector or government employees perform the activity. The
intended outcome is better service at a lower price.
The Commission has competitively contracted for information technology services,
preparation of financial statements, human capital planning, certain editing and
publishing services, mailroom and general labor services, cleaning and building
maintenance services, and security services. Private sector contract employees comprise
more than 10 percent of on-site personnel. In addition, other services are acquired on an
as-needed basis, such as virtually all equipment maintenance services, application systems
design and development, and certain audit and financial services. For example, the OIG
contracts for audit services.
The Commission has stated that its permanent staff is devoted to core agency investigative
functions and recurring support activities where the cost of outsourcing is less competitive.
In August 2004, the Commission issued its seventh comprehensive list of commercial
activities consistent with the Federal Activities Inventory Reform (FAIR) Act. The

                                             1
                                          ig
                           October 2004 SemiAnnual Report




COMMISSION’S TOP MANAGEMENT CHALLENGES—Continued

Commission has said that it will continue to evaluate competitive alternatives and efficient
service contracting options to maximize efficiency and minimize cost. During this period,
OIG audits and inspections did not address competitive sourcing.

Management Challenge: Improved Financial Performance. This initiative is to
improve the quality and timeliness of financial information so that it can be used to reduce
waste, fraud, and abuse and manage federal programs more effectively. Most major
departments and agencies had unqualified opinions on their FY 2003 financial audit. Some
smaller agencies—including the Commission—received a waiver for presenting FY 2003
statements but subsequently will be required to prepare audited financial statements in
accordance with the Accountability of Tax Dollars Act of 2002 (Public Law 107-289). The
deadline for FY 2004 financial statements has been accelerated to November 15th—just 45
days after the end of the fiscal year.

In preparation for our audit of the FY 2004 statements, our July 2003 audit of the
Commission’s financial management controls found that the Commission’s accounting
records reasonably and fairly represented financial transactions and internal controls were
in place. We found no instances of fraud. However, we made four recommendations to
strengthen internal controls related to property, cash, payroll, and accounts receivable. The
Assistant Inspector General for Audit has coordinated with the Director, Office of
Administration, and his staff to ensure that the Commission prepares financial statements
in accordance with OMB provisions. The Commission has contracted for assistance in
preparing the financial statements in FY 2004.

In FY 2004, the key components of the Commission’s total budget were personnel (72
percent) and rent (10 percent). Staffing levels have declined by 20 percent in the last 10
years, resulting largely from a 10 percent reduction-in-force in FY 1996 and decisions not
to fill certain vacancies. General administrative costs of the Office of Administration
(Human Resources, Facilities Management, and Finance) account for less than 7 percent
of total labor costs, and administrative staffing levels have been reduced by 45 percent
since FY 1996.

The Commission does not administer benefits and assistance payments programs and, as
such, would have few problems related to improper payments. Commission payments are
tied to Commission payroll and standard nonpersonnel costs such as space rental, travel,
training, services, supplies and equipment. Commission staff and senior managers monitor
execution of the Expenditure Plan, and the Office of Finance reviews payment procedures.
Also, the OIG has addressed aspects of payment procedures during the past four

                                             2
                                          ig
                            October 2004 SemiAnnual Report




COMMISSION’S TOP MANAGEMENT CHALLENGES—Continued
information security audits (discussed on page 14) as well as the financial management
control audit (discussed on page 14).
Management Challenge: Budget and Performance Integration. The FY 2004
Federal Budget published ratings and detailed assessments of 234 federal programs—
approximately one-fifth of the entire federal government, representing $494 billion in
spending. When making budget decisions, OMB used the Performance Assessment Rating
Tool (PART) to view how well federal programs were performing and whether managers
were held accountable for performance. OMB plans to examine another 20 percent of
programs for FY 2005, and 100 percent of federal programs eventually. Performance
information will be used to (1) end or reform programs that either cannot demonstrate
positive results or are clearly failing and (2) put resources in programs that can prove they
are successful.
In prior Semiannual Reports to Congress, the OIG identified as one of the Commission’s
top management challenges: Performance Management, Measurement and Account-
ability. Since FY 2000, the Commission has accelerated efforts to link budgeting with
strategic planning. Budget formulation and execution activities have been restructured to
permit the allocation of virtually all costs to one of the five operations set forth in the
Strategic Plan. Specifically, because personnel costs are more than 72 percent of total costs,
the Commission uses the labor cost reporting system to collect work years and cost
information and attribute it directly to strategic operations when feasible. Since FY 2001,
the Commission’s Budget Justification has presented cost and workload information in a
format that aligns direct and indirect costs with operations in the Strategic Plan.
In the Commission’s budget, all indirect costs are allocated to the Commission’s five
operations with the exception of the OIG activities, certain labor and union activities, and
certain nonpersonnel costs. These are reported as unallocated indirect costs. The
Commission also presents data using a budget object classification methodology. Budget
integration efforts to date have allowed Commission managers more effectively to track
changes in workload and compare them to changes in cost. In doing so, the Commission is
able to determine whether resources are being allocated efficiently. The performance goals
and indicators in the Commission’s Annual Performance Plan also provide measures by
which the agency’s activities can be assessed. During this period, OIG audits and
inspections did not address budget and performance integration.
Management Challenge: Expanded Electronic Government. The Expanded
Electronic Government Initiative is designed to bring more services to the American citizen
over the Internet, make government more efficient, and improve information technology

                                              3
                                          ig
                            October 2004 SemiAnnual Report




COMMISSION’S TOP MANAGEMENT CHALLENGES—Continued
(IT) management throughout the Executive Branch. Agencies continue to manage their IT
within a framework the Administration set up to avoid problems before investments are
made and taxpayer dollars lost. Agencies must demonstrate that their projects will provide
significant value to the mission, have a reasonable likelihood of success in meeting goals
and objectives, incorporate sufficient IT security, help achieve the PMA, and not duplicate
other investments.
Unfortunately, almost half the modernization projects have insufficient IT security, and the
Administration intends not to let any such projects go forward without it. There is also a
shortage of qualified project managers and IT architects to successfully manage federal IT
investments. Out of the $59 billion in IT investments, 771 projects representing $20.9
billion are currently on an “At-Risk List,” meaning they do not successfully demonstrate
sufficient potential for success through the business case, or do not adequately address IT
security.
Prior Semiannual Reports to Congress identified as one of the Commission’s top
management challenges: Information Technology Management and Security. Every
Commission business process—investigations, research, trade information services, trade
policy support, and administration—depends on reliable and effective information systems
and services. The information that the Commission processes and generates is a valuable
asset that management must protect from loss, misuse, unauthorized access or
modification.
The challenge the Commission faces in providing such protection is how to apply adequate
resources to ensure sufficient information security. Much of this information is in electronic
form, resides in a variety of hardware platforms and software applications, and is
accessible through various communications links. Although the Commission has avoided
work disruption or losses due to cyber-crime, the Commission’s data could be susceptible
both to physical and electronic threats.
Congress enacted the Government Information Security Reform Act (GISRA) in 2000, and
the Federal Information Security Management Act (FISMA) in 2002, to help federal
organizations protect government information resources. Each agency must centralize
information security management under its Chief Information Officer (CIO), as the
Commission did in FY 2003. The need for centralized information security management
results, in part, from the highly interconnected nature of modern information systems.
Agency Inspectors General are to conduct an annual independent evaluation of agency
information security programs and practices. Accordingly, we conducted comprehensive
audits of the Commission’s information security program in FY 2001, FY 2002, and FY

                                              4
                                                      ig
                                   October 2004 SemiAnnual Report




2003 (discussed on page 14). The FY 2003 evaluation completed during the prior period
found that the Commission must take further action in order to achieve consistency with
OMB Circular No. A-130, Appendix III Security of Federal Automated Information
Resources (February 1996). We identified 7 findings in the areas of management,
operational, and technical controls and made 18 recommendations to improve the
Commission’s IT security. Although problems persist, the Commission made sufficient
progress in addressing them that they neither in part nor in sum constitute a material
weakness. In addition to information security measures, the Commission has committed
significant resources to electronic government initiatives.

In FY 2003, the Commission replaced the original Electronic Document Information
System (EDIS) with a new system that has increased functionality and promises
significant cost savings to external users. In FY 2003, the Commission also replaced its
local area network. In FY 2004, this effort included initial steps to develop a new capability
for providing secure Web access to non-public data by specific authorized external
customers. These initiatives are part of the Commission’s Information Resource
Management (IRM) Strategic Plan. Consistent with this plan, IT projects are evaluated
and prioritized in accordance with their contribution to the agency’s overall Strategic Plan
and the meeting of performance goals.

Management Challenge: Strategic Management of Human Capital. Facing
substantial prospective retirements, agencies must hire and retain people with needed
skills and hold them accountable for serving customers and stakeholders. OMB considered
20 agencies “green” for progress, meaning they had plans in place to assess their workforce
and to use every tool at their disposal to recruit and retain the workforce they need to fulfill
their missions.

In prior Semiannual Reports to Congress the OIG identified as one of the Commission’s top
management challenges: Human Capital and Staffing. In March 2002, the OIG assessed
the Commission’s family-friendly programs1—those programs promoted by the Office of
Personnel Management’s Office of Family-Friendly Advocacy—in terms of their
compliance with statutory and executive level guidance and whether they meet the needs
of Commission employees.

As previously noted, human capital is the Commission’s largest resource, with salaries and
personnel benefits representing approximately 72 percent of the FY 2004 budget. The

     1 Assessment of the Commission’s Family-Friendly Programs, Inspection Report, OIG-IR-06-01 (March 27, 2002)
http://www.usitc.gov/oig/OIG-IR-06-01.pdf.


                                                          5
                                          ig
                            October 2004 SemiAnnual Report




COMMISSION’S TOP MANAGEMENT CHALLENGES—Continued
Commission maintains an expert staff of professional international trade and
nomenclature analysts, investigators, attorneys, economists, computer specialists and
administrative support personnel. All employees are located at 500 E Street SW,
Washington, DC 20436. At the end of FY 2004, the Commission employed a total of 359
permanent employees.
More than one third of the Commission’s workforce is eligible to retire in the next 5 years.
The Commission may realign resources as priorities shift, but the cost of the current
staffing level is increasing at a rate faster than appropriation levels as the number of Civil
Service Retirement System employees decreases and the number of Federal Employees
Retirement System employees increases. Thus, the Commission must streamline human
resource processes, review how it utilizes staff, and develop a better understanding of the
relationship between human resources and financial resources to ensure that the
Commission builds, deploys, and sustains a skilled, flexible, high-performing workforce. In
FY 2005, the Commission will focus on:
       h Leadership and Knowledge Management. In FY 2003, the Commission
           surveyed employees regarding workplace issues. The Chairman and Vice
           Chairman conducted listening sessions with small groups of employees to obtain
           first-hand knowledge of workplace issues. Having conducted a strategic
           workforce planning initiative to analyze employee skills and identify any
           current or future skills gaps, in FY 2005 the Commission plans to continue work
           on an agency-wide strategy for linking assessed skill gaps to training curriculum
           and development initiatives.
       h Workforce Planning and Deployment. Currently, the Commission is
           reviewing position management to improve organizational effectiveness and
           align resources with workload and mission. During FY 2002, in fulfillment of the
           requirements of the Clinger-Cohen Act, the Commission established the CIO
           position. During FY 2003, the Commission realigned its IT resources better to
           support its mission as well as the implementation of electronic business and
           other IT initiatives. Innovative realignment of resources and strategic position
           management should continue in FY 2005 as the Commission redeploys existing
           resources to meet the surge in workload resulting from sunset investigations.
       h Strategic Alignment. During FY 2005, the Commission plans to complete a
           human capital management plan that establishes human capital goals and
           objectives that link to the Commission’s Strategic Plan. Taking a long view, the
           Commission will reflect how human capital supports mission achievement. In
           FY 2005, the Commission will complete efforts to emphasize performance- based
           accountability for senior managers.

                                              6
                                                                                                  ig
                                                                     October 2004 SemiAnnual Report




                                              COMMISSION’S ORGANIZATIONAL STRUCTURE

                                                        U.S. International Trade Commission




                                                                                     Chairman
                                                                                  COMMISSION




 Office of the          Office of the                                     Office of                  Chief               Office of              Office of the           Office of
                                                Office of the                                                                                                            Equal
Administrative           General                Director of               External                Information         the Director of            Inspector
 Law Judges              Counsel                                          Relations                  Officer          Administration              General              Employment
                                                Operations                                                                                                             Opportunity

                                                                          Trade Remedy
                                                                         Assistance Office




 Office of           Office of               Office of                             Office of                 Office of               Office of                               Office of
Economics                                                                                                  Information                Human                    Office of     Facilities
                     Industries           Investigations                              the                                                                      Finance
                                                                                   Secretary               Technology                Resources                              Management
                                                                                                             Services




                            Office of                  Office of
                          Tariff Affairs             Unfair Import
                           and Trade                 Investigations
                          Agreements
             Budget Committee                                                                                   Information Resources Management Steering Committee (IRMSC)
                Authority: Adm. Order 00-06, dated 7/26/00                                                         Authority: Adm. Order 00-08, dated 8/25/00

                                                                                                                Labor-Management Occupational Safety and Health Committee
             Directives Review Committee                                                                          Authority: Adm. Order 02-03, dated 1/10/02
                 Authority: CO71-U-004, dated 7/11/97

             Document Imaging Oversight Committee (DIOC)                                                        Labor-Management Partnership Council
                Authority: Adm. Order 96-06, dated 3/15/96                                                        Authority: Adm. Order 03-05, dated 2/11/03

             Executive Resources Board (ERB)                                                                    Strategic Planning Committee (SPC)
                Authority: Adm. Order 04-06, dated 6/23/04                                                         Authority: Adm. Order 02-08, dated 5/3/02

             Incentive Awards Committee (IAC)                                                                   Senior Executive Service Performance Review Board (PRB)
                 Authority: Adm. Order 92-27, dated 7/2/92 and Adm. Order 97-02, dated 10/15/96                   Authority: Adm. Order 02-09, dated 7/15/02


                                                                                                     7
                                         ig
                          October 2004 SemiAnnual Report




                        COMMISSION PROFILE
                          http://www.usitc.gov
The Commission is an independent, nonpartisan, quasi-judicial federal agency established
by Congress to provide trade expertise to both the Legislative and Executive Branches of
government. Its mission is to: administer U.S. trade remedy laws within its mandate in a
fair and objective manner; provide the President, the U.S. Trade Representative (USTR)
and the Congress with independent, quality analysis, information, and support on matters
of tariffs and international trade and competitiveness; and maintain the Harmonized Tariff
Schedule of the U.S. In so doing, the Commission serves the public by implementing U.S.
law and contributing to the development of sound and informed U.S. trade policy. Major
Commission activities include:
       j Import Injury Investigations—The Commission makes determinations in a
         variety of import injury investigations, primarily antidumping and
         countervailing duty (AD/CVD) investigations concerning the effects of unfairly
         traded imports on a U.S. industry.
       j Intellectual Property-Based Investigations—The Commission adjudi-
         cates complaints brought by domestic industries under section 337 of the Tariff
         Act of 1930 that allege infringement of U.S. intellectual property rights and
         other unfair methods of competition by imported goods.
       j Research—The Commission’s research program consists of probable economic
         effects investigations under section 131 of the Trade Act of 1974 and section
         2104 of the Trade Act of 2002; analysis of trade and competitiveness issues
         under section 332 of the Tariff Act of 1930; and independent assessments on a
         wide range of emerging trade issues.
       j Trade Information Services—The Commission’s trade information services
         include such activities as legislative reports; maintenance of the Harmonized
         Tariff Schedule; Schedule XX; U.S. Schedule of Services Commitments under
         the General Agreement on Tariffs and Trade/World Trade Organization;
         preparation of U.S. submissions to the Integrated Database of the World Trade
         Organization; and certain other information gathering, processing, and
         dissemination activities.
       j Trade Policy Support—The Commission supports the formulation of U.S.
         trade policy, providing objective input to both the Executive Branch and the
         Congress on the basis of the distinctive expertise of its staff.

                                            8
                                         ig
                           October 2004 SemiAnnual Report




COMMISSION PROFILE—Continued
The Commission consists of six Commissioners, appointed by the President and confirmed
by the Senate, who serve one term of nine years, unless appointed to fill an unexpired term.
No more than three Commissioners may be of the same political party. The Chairman and
Vice Chairman are designated by the President and serve a 2-year statutory term. The
Chairman is responsible, within statutory limits, for the administrative functions of the
Commission.
The current Commissioners are Stephen Koplan, Daniel R. Pearson, Charlotte R. Lane,
Jennifer A. Hillman, Marcia E. Miller, and Deanna Tanner Okun. The current Chairman
is Stephen Koplan and the current Vice Chairman is Deanna Tanner Okun.
In FY 2004, the Commission had an estimated $58.7 million in available funds and a
staffing plan for 397.5 permanent positions and 9 term/temporary positions. All employees
are located in one building at 500 E Street, SW, Washington, DC.




                                             9
                                              ig
                              October 2004 SemiAnnual Report




              THE OFFICE OF INSPECTOR GENERAL
                     http://www.usitc.gov/oig

The Commission established the OIG pursuant to the 1988 amendments to the Inspector
General Act. The Inspector General reports directly to the Chairman. The Inspector
General is responsible for directing and carrying out audits, investigations, and inspections
relating to Commission programs and operations. The Inspector General also provides
comments and recommendations on proposed legislation, regulations, and procedures as
to their economy, efficiency and effectiveness.
As shown in the organizational chart, the OIG had three full-time positions and one
part-time position in FY 2004.
For FY 2004, the OIG was allocated 3.5 staff years. This provided for three full-time
positions (Inspector General, Assistant Inspector General for Audit, and Paralegal
Specialist) and one part-time position (Counsel to the Inspector General). The Commission
also allocated $230,000 for OIG contracted audit and review services for FY 2004.




                          Office of Inspector General: Organization
  Full-time

          Inspector General



                                                                               Part-time

    Assistant Inspector
                               Paralegal Specialist                      Counsel to the
     General for Audit
                                                                       Inspector General




                                                10
                                          ig
                           October 2004 SemiAnnual Report




The OIG hired a summer intern from the Georgetown University School of Foreign Service.
Using his prior audit experience and interest in international trade, the intern participated
in our inspection of how the Commission implemented the Continued Dumping and
Subsidy Offset Act of 2000. (see page 16).




                       Miguel Estien joined the OIG staff as a summer
                       intern on May 17, 2004 and worked through
                       August 10, 2004.




                                            11
                                                            ig
                                       October 2004 SemiAnnual Report




                                                       AUDITS
                                                  Audit Report List
We issued one audit report during this period:
          j OIG-AR-01-04, Evaluation of the U.S. International Trade Commission’s
            Discretionary Document and Mail Distribution Program (see page 12)
Generally, the Commission made progress implementing pending actions recommended in
the following reports since issuance of our last Semiannual Report:
          j OIG-AR-03-03, Evaluation of the U.S. International Trade Commission’s Fiscal
            Year 2003 Information Security Program and Practices (see page 14)
          j OIG-AR-02-03, Audit of the U.S. International Trade Commission’s Financial
            Management System Control (see page 14)
          j OIG-AR-03-02, Evaluation of the Commission’s Travel Program (see page 14)
          j OIG-AR-05-00, Evaluation of USITC’s Records Management (see page 15)
On September 23, 2004, we requested the Commission’s comments on the FY 2004
information security audit report in accordance with the Federal Information Security
Management Act. Also during this period, the Assistant Inspector General for Audit
(AIGA) coordinated with the Director of Administration/Chief Information Officer and his
staff to prepare for our upcoming financial statement audit required by the Accountability
of Tax Dollars Act.


                                 Summary of Significant Audits
Evaluation of the U.S. International Trade Commission’s Discretionary
Document and Mail Distribution Program, OIG-AR-01-04 (May 26, 2004)
http://www.usitc.gov/oig/OIG-IR-01-04.pdf
The OIG performed an audit to determine if the Commission effectively processed its
discretionary2 mail and made publicly available information accessible on its Web site.
Specifically, we determined whether the Commission:
          j Made publicly available, or discretionary, information accessible on its Web site.

    2 For purposes of this audit, reports and publications that are available to the public were referred to as discretionary
documents.


                                                               12
                                          ig
                            October 2004 SemiAnnual Report




AUDITS—Continued
       j Took action to promote Web site retrieval of such information vs. paper
         processing.
       j Met its customer needs by ensuring that discretionary information was well
         organized and accessible.
       j Contracted mail service operated as intended.
While the Commission processed outgoing and returned mail as intended, we made six
recommendations to (1) increase the use of information technology at the Commission, (2)
encourage customers to obtain publicly available information through the Web or a
CD-ROM, and (3) enhance information technology procedures. The Commission concurred
with our findings and recommendations.
Our audit revealed that processing and delivery costs could be reduced and service to the
public could be enhanced by completing formal plans and policies to ensure information
technology tools are implemented and used. First, given that the Commission established
a Web team and hired a Webmaster approximately 1 month before the start of this audit,
it is important to have a completed and approved plan of action with milestones to support
and account for their efforts. Second, although the Commission encouraged use of electronic
documents in place of paper documents for distribution, official guidance on the format (i.e.,
paper or CD-ROM) was needed. Third, while the Commission’s annual Budget
Justifications discussed its desire to automate the investigation questionnaire (IQ) process,
the Commission did not have a system development life cycle to ensure the IQ System’s
development or implementation.
Additionally, the Commission lacked a sufficient process to encourage customers to request
products in less expensive formats and track customers’ preferred product formats. Also,
the Commission did not encourage its program offices to submit electronic formatted
documents to the Office of Publishing or use existing technology to make products easier
for customers to find on the Internet.




                                             13
                                         ig
                           October 2004 SemiAnnual Report




                            AUDIT FOLLOW-UP
Pending recommended actions remain open on four audits reported in the previous
semiannual report:
Evaluation of the U.S. International Trade Commission’s Fiscal Year 2003
Information Security Program and Practices, OIG-AR-03-03 (September 22,
2003) http://www.usitc.gov/oig/OIG-AR-03-03.pdf
Our annual independent audit of the Commission’s information security program and
practices resulted in 18 recommendations, all of which were agreed to by management. The
Commission completed action on 7 of the 18 recommendations, decided not to implement
1, and 10 remain open—either no/partial action was taken or the action did not address the
finding.
Due to the sensitive content, we have limited distribution of this and prior annual reports.
Audit of the U.S. International Trade Commission’s Financial Management
System Control, OIG-AR-02-03 (July 24, 2003)
http://www.usitc.gov/oig/OIG-AR-02-03.pdf
The Commission agreed with all three recommendations, implemented two, but has yet to:
       j Revise Directive 3550.3 and Form 110 to improve controls over fixed assets and
         accountable property.
The Director of Finance revised the above. However, it had not received final approval from
the Director of Administration. The Commission anticipated final actions by November 30,
2004.
Evaluation of the Commission’s Travel Program, OIG-AR-03-02 (September 30,
2002) http://www.usitc.gov/oig/OIG-AR-03-02.pdf
The Commission agreed with all six recommendations, implemented five, but has yet to:
       j Issue an Administrative Order directing supervisors to identify and communi-
         cate each cardholder’s planned travel in order to have the cardholder’s
         authorized charge limit modified accordingly.
With the advent of a major change in travel service providers, the Commission has
postponed a final solution to this issue until a new travel management contract is awarded.
However, charge limits have been placed on all travel cards Commission-wide and are only
removed for international travel. Random audits are conducted by the Office of Finance



                                            14
                                         ig
                           October 2004 SemiAnnual Report




AUDIT FOLLOW-UP—Continued
on travel reports throughout the year. The eTravel migration team is scheduled to make
a selection by December 30, 2004, with the new system operational by February 28, 2005.
The costs and benefits of further limiting or restricting card usage will be evaluated with
the new service provider.
Evaluation of USITC’s Records Management, OIG-AR-05-00 (March 7, 2001)
http://www.usitc.gov/oig/OIG-AR-05-00.pdf
The Commission agreed with all 22 recommendations, implemented 21, but has yet to:
       j Identify records scanned by EDIS so they can be disposed.
The Commission received approval from the National Archives and Records
Administration to discontinue its paper based docket records, with the electronic records
in EDIS recognized as the official records of the agency. In FY 2005, the Office of the
Secretary will contract out the records certification process and destruction of unnecessary
paper records. The Commission anticipates this process will begin by March 2005.




                                            15
                                                       ig
                                    October 2004 SemiAnnual Report




                                            INSPECTIONS

                                      Inspection Report List
During this period we issued the following inspection report:
         j U.S. International Trade Commission’s Implementation of the
           Continued Dumping and Subsidy Offset Act of 2000, OIG-IR-01-04
           (September 30, 2004) http://usitc.gov/oig/OIG-IR-01-04.pdf
The objective of this inspection was to determine if the Commission effectively: (1)
identified and reported to the U.S. Customs and Border Protection (CBP)3 the names of
affected    domestic    producers    that   supported   action    resulting   in   an
                                       4
antidumping/countervailing duty order , and (2) processed requests to be added to the
names of affected domestic producers provided to CBP.
The Continued Dumping and Subsidy Offset Act of 2000 (CDSOA or the Act), also known
as the “Byrd Amendment,”5 provided that affected producers may be eligible to receive an
offset—funds disbursed annually by the CBP from assessed anti-dumping and
countervailing (AD/CV) duties—for certain qualifying expenditures incurred after the
issuance of an order or finding.
Generally, dumping occurs when a foreign firm sells merchandise in the U.S. market at a
price lower than the price it charges for a comparable product sold in its domestic market.
If the U.S. Department of Commerce (Commerce) finds such merchandise, antidumping
duties are imposed. If Commerce finds that imported merchandise benefits from subsidies
bestowed by a foreign government, countervailing duties are imposed. In all antidumping
cases, and in most countervailing duty cases, these duties are imposed only if the
Commission determines that the imported goods caused material injury or the threat of
material injury to a U.S. domestic industry.
CDSOA assigned the Commission responsibility to ascertain and forward to CBP a list of
producers potentially eligible to receive an offset in connection with an AD/CV duty order.
For orders in which the Commission conducted an investigation, a U.S. domestic producer
who was a petitioner or an interested party in support of a petition to which an order had


    3 Under the National Strategy for Homeland Security and the Homeland Security Act of 2002, part of the U.S. Customs
Service became U.S. Customs and Border Protection within the U.S. Department of Homeland Security.
    4 In this report, we will refer to an AD/CV duty order or finding as an “order”.
    5 Named for CDSOA sponsor Senator Robert C. Byrd of West Virginia.



                                                          16
                                         ig
                           October 2004 SemiAnnual Report




INSPECTIONS—Continued
been entered were identified when the producer either: (a) completed the Producer
Questionnaire, indicated support for the petition, and waived confidentiality or (b)
supported the action during the investigation by submitting a letter to the Commission. For
orders not requiring an investigation, Commerce supplied the information to the
Commission for inclusion in the list forwarded to CBP. The Commission’s Office of
Investigations, under the Director of Operations, prepares the list.
Our inspection found while the Commission effectively implemented the Act, we suggested
additional actions to enhance its process and improve communication, such as:
       j Developing written procedures to identify, process and report producers to CBP.
       j Adding to its website guidance on the Act’s requirements and answers to key
         stakeholders’ problems.
       j Revising the Producer’s Questionnaire to alert eligible producers that
         requesting confidentiality might prevent inclusion in the Commission’s list
         provided to CBP.
       j Linking all electronic documents associated with an investigation in the
         Commission’s Electronic Document Information System (EDIS).
Commission officials responded positively to our draft report. The Director of Operations
indicated that he had revised the investigator’s checklist and intended to implement the
other suggestions addressed to him by October 29, 2004. Specifically, he will seek advice
from the Office of General Counsel and CBP to: clarify and streamline reporting of
associations and coalitions as well as the groups’ members; provide website information on
the Commission’s and CBP’s roles; and clarify the Producer’s Questionnaire regarding
confidentiality.
The Chief Information Officer commented that EDIS possibly could link CDSOA electronic
documents to applicable investigation electronic files maintained in EDIS. However, the
Commission still may need to assign responsibility for filing and retrieving hard copies of
CDSOA-related documents.




                                           17
                                         ig
                           October 2004 SemiAnnual Report




INSPECTIONS—Continued


                        Actions on Prior Inspections
U.S. International Trade Commission’s Occupant Emergency Program,
Inspection Report, OIG-IR-01-03 (March 28, 2003)
http://www.usitc.gov/oig/OIG-IR-01-03.pdf

The OIG inspected the Commission’s Occupant Emergency Program (OEP) to determine
if it would adequately ensure the safety of Commission and other occupants at 500 E Street,
SW, in Washington, DC. In response to our suggestion that the Commission develop an
official building-wide OEP, on January 22, 2004, the Commission issued a purchase order
to produce the plan.

In August 2004, the “Building Emergency Action Plan” was finalized and distributed to all
the building tenant agencies and Boston Properties. Also, all employees of the building
received an emergency procedures pamphlet that provides instructions for dealing with
various related emergencies such as weather, bomb threat, medical, tornado, earthquakes
and bio-terrorism. New communications radios and megaphones were purchased and
distributed to emergency plan personnel. Emergency evacuation and shelter in place drills
will be held throughout the coming year.


                                                              From left: Gary Stanford,
                                                              Facilities Management Specialist;
                                                              Patricia Katsouros, Director of
                                                              Finance; and Jonathan Brown,
                                                              Director of Facilities Management
                                                              with new Evaluation Floor
                                                              Guide designed by WPS
                                                              Emergency Planning LLC.




                                           18
                                            ig
                             October 2004 SemiAnnual Report




                               INVESTIGATIONS
The OIG investigates possible violations of laws, rules, and regulations, mismanagement,
abuse of authority, and waste of funds. These investigations may result either from our own
audit, inspection and other work or in response to allegations, complaints, and information
received from employees, other government agencies, contractors, and other concerned
individuals. The objective of this program is to ensure the integrity of the Commission and
assure individuals fair, impartial, and independent investigations.


                           Summary of Investigative Activity
During this reporting period, one new case was initiated. A summary of investigative
activity is presented below.




       Case Workload                 Referrals Processed        Investigative Results
 Open (03/31/04)       0       Received                 1      Referrals for
                                                               Prosecution              0
 Initiated             1       Referred to OIG
                               Audit & Inspection              Referrals Declined
 Closed                0       Divisions                0      for Prosecution          0

 Open (09/30/04)       1       Referred to Commission   1      Administrative
                                                               Action                   0
                               Referred to other
                               Federal Agencies         0

                               Evaluated but no
                               Investigation
                               Initiated                0




                                               19
                                         ig
                          October 2004 SemiAnnual Report




                           OTHER ACTIVITIES

Regulatory Review
The Inspector General Act, 5 U.S.C., Appendix, Section 4(a)(2), requires the OIG to review
existing and proposed legislation and regulations and to make recommendations
concerning the impact of such legislation or regulations on the economy and efficiency of
programs and operations administered by the Commission.
The OIG evaluates the impact that new or revised procedures will have on the economy and
efficiency of programs and operations. During this reporting period, the OIG commented
on drafts of three agency documents.
The OIG reviewed a draft notice of proposed rulemaking and notice of changes in agency
procedures, concerning antidumping and countervailing duty procedures.
The OIG commented on the draft Administrative Order regarding agency payment of
professional credentials. Based upon the OIG’s comments, the Commission added a
provision disallowing payment for examinations to obtain professional credentials.
In addition, the OIG commented on a proposed career intern directive. The Commission
accepted the Counsel’s suggestion and amended the draft document.


Government Accountability Office (GAO)
The Inspector General Act states that each Inspector General shall give particular regard
to the activities of the Comptroller General of the United States with a view toward
avoiding duplication and ensuring effective coordination and cooperation. During this
period, GAO began an evaluation of the Commission’s actions regarding relief mechanisms
for imports from the People’s Republic of China.


Peer Review
In September 2004, the Consumer Product Safety Commission (CPSC) OIG reported the
results of its quality review of our audit operations. The CPSC OIG found that the
Commission’s OIG has an effective internal quality control system and conducts audits in
accordance with the Comptroller General’s Government Auditing Standards. Without
exception, our office exceeded all the peer review evaluation criteria.




                                           20
                                         ig
                           October 2004 SemiAnnual Report




OTHER ACTIVITIES—Continued
Each OIG organization is required to implement and maintain an internal quality control
system for its audit work and attestation engagements. The 1988 amendments to the
Inspector General Act of 1978 require that external quality reviews (or peer reviews) be
performed exclusively by an audit entity of the federal government, including the
Government Accountability Office or an OIG. Government Auditing Standards call for each
federal statutory OIG to undergo a peer review every 3 years.


Liaison Activities

The Inspector General is one of 28 designated Federal entities Inspectors General, who are
members of the Executive Council on Integrity and Efficiency (ECIE). Established by
Executive Order 12805 on May 11, 1992, the ECIE is chaired by the Office of Management
and Budget and, in addition to the Inspectors General, includes representatives from the
Office of Personnel Management, the Office of Government Ethics, the Office of Special
Counsel, and the Federal Bureau of Investigations.

The Inspector General also participates in activities sponsored by the President’s Council
on Integrity and Efficiency (PCIE), which consists primarily of the Presidentially appointed
Inspectors General. The ECIE and PCIE have identical functions and responsibilities to
promote integrity and efficiency and to detect and prevent fraud, waste and abuse in
federal programs.

During this period, the Inspector General served on the Board of the Association of
Inspectors General, where federal, state and local OIGs share ideas on how to enhance
their effectiveness and professionalism. The Inspector General has served for over 2 years
as a member of the PCIE ECIE Human Resources Committee on which he participated
with other Inspectors General to plan a management institute for OIG auditors,
investigators, and other professionals.

In addition to Human Resource Committee activities, the Inspector General has for more
than 3 years volunteered as an occasional guest instructor for the Inspectors General
Auditor Training Institute. As a Certified Myers Briggs Type Instrument (MBTI)
Professional, he facilitated three team building workshops using the MBTI for multiple
Offices of Inspector General in Rosslyn, Virginia. He also provided an MBTI workshop for
the U.S. Environmental Protection Agency OIG’s leadership team on September 13, 2004,
and taught a 3-day workshop for multiple Offices of Inspector General on executive briefing
and testimonial skills.

                                            21
                                         ig
                           October 2004 SemiAnnual Report




OTHER ACTIVITIES—Continued

The Assistant Inspector General for Audit (AIGA) is a member of the Financial Statement
Audit Network (FSAN) that anticipates potential changes and shares experiences related
to auditing their respective agencies’ financial statements. She is also a member of the
Federal Audit Executive Council (FAEC) established to assist the community in addressing
issues that arise in OIG organizations by developing and maintaining databases of
information useful to government auditors.

The Counsel to the Inspector General, as a member of the Inter-agency Ethics Council,
continued to provide a monthly report to the Inter-agency Ethics Council on Federal Court
cases involving ethics issues. With participants from other OIG organizations, she designed
and taught an ethics training module for the Inspectors General Auditor Training
Institute. She also hosted on September 15, 2004, the Council of Counsels to the Inspectors
General (CCIG) Legal Forum, attended by 100 OIG attorneys. The CCIG Forum included
speakers on recent case law developments at the Merit Systems Protection Board and
Equal Employment Opportunity Commission as well as updates on Freedom of
Information Act and Privacy Act laws and criminal law.

                                                       From left: Jennifer Cron-Hepler,
                                                       USITC OIG Counsel, Frank P.
                                                       LaRocca, Jr. NASA OIG Counsel,
                                                       Richard L. Huff, Co-Director of
                                                       Information/Privacy at Department
                                                       of Justice, Kenneth F. Clarke,
                                                       Inspector General of USITC and
                                                       background conference attendees.




The Paralegal Specialist participated in a Human Capital development conference held by
the Commission’s Office of Human Resources in Baltimore, MD on June 1-2, 2004.

                                           22
                                          ig
                         October 2004 SemiAnnual Report




              REPORTING REQUIREMENTS INDEX

The Inspector General Act of 1978, as amended (1988), specifies reporting requirements
for semiannual reports.

CITATION            REPORTING REQUIREMENTS                                             PAGE

Section 4(a)(2)     Recommendations concerning the impact of such legislation or
                    regulations on the economy and efficiency in the administration
                    of programs and operations administered or financed by the
                    Commission                                                           20

Section 5(a)(1)     Description of significant problems, abuses, and deficiencies
                    relating to the administration of programs and operations          None

Section 5(a)(2)     Description of the recommendations for corrective action made
                    with respect to significant problems, abuses, or deficiencies      None

Section 5(a)(3)     Identification of each significant recommendation described in
                    previous semiannual reports on which corrective action has not
                    been completed                                                     14-15

Section 5(a)(4)     Summary of matters referred to prosecutive authorities and the
                    prosecutions and convictions which have resulted                     19

Section 5(a)(5)     Summary of each report made to the head of the establishment
                    under which information or assistance was unreasonably refused     None

Section 5(a)(6)     Listing of each audit report                                         12

Section 5(a)(7)     Summary of each significant report                                 12-13

Section 5(a)(8)     Statistical tables showing Audit Reports-Questioned Costs            24

Section 5(a)(9)     Statistical tables showing Audit Reports-Funds Put to Better Use     25

Section 5(a)(10)    Summary of each audit report issued before the commencement of
                    the reporting period for which no management decision has been
                    made by the end of the reporting period                            None

Section 5(a)(11)    Description and explanation of the reasons for any significant
                    revised management decisions                                       None

Section 5(a)(12)    Information concerning any significant management decision
                    with which the Inspector General is in disagreement                None


                                             23
                                                         ig
                                     October 2004 SemiAnnual Report




                      Table 1
       AUDIT REPORTS WITH QUESTIONED COSTS6
                                                                                                      Dollar Value

                                                         Number of                    Questioned              Unsupported
                                                           Reports                         Costs                    Costs

A.        For which no management decision has
          been made by the commencement of the period               0                             0                         0

B.        Which were issued during the reporting period             0                             0                         0

          Subtotals (A+B)                                           0                             0                         0

C.        For which a management decision was made
          during the reporting period                               0                             0                         0

          (i)      Dollar value of
                   disallowed costs                                 0                             0                         0

          (ii)      Dollar value of costs
                    not disallowed                                  0                             0                         0

D.        For which no management decision has been
          made by the end of the reporting period                   0                             0                         0

E.        Reports for which no management decision was
          made within six months of issuance                        0                             0                         0




    6 The ITC OIG generally does not perform contract audits that are the basis for mandatory reporting of questioned and
unsupported costs.


                                                            24
                                                  ig
                                 October 2004 SemiAnnual Report




                      Table 2
      AUDIT REPORTS WITH RECOMMENDATIONS
         THAT FUNDS BE PUT TO BETTER USE
                                                                           Number of   Dollar
                                                                             Reports    Value

A.      For which no management decision has been made by
        the commencement of the period                                             0       0

B.      Which were issued during the reporting period                              0       0

Subtotals (A+B)                                                                    0       0

C.      For which a management decision was made during the reporting period       0       0

        (i)       Dollar value of recommendations that were
                  agreed to by management                                          0       0

        (ii)      Dollar value of recommendations that were
                  not agreed to by management                                      0       0

D.      For which no management decision has been made by the end of the
        reporting period                                                           0       0

E.      Reports for which no management decision was made within six
        months of issuance                                                         0       0




                                                     25
                                         ig
                           October 2004 SemiAnnual Report




                                   GLOSSARY
The following definitions apply to the terms used in this report.


Questioned Cost              means a cost that is questioned by the Office because of:
                             (1) an alleged violation of a provision of a law, regulation,
                             contract, grant, cooperative agreement, or other agreement or
                             document governing the expenditure of funds; (2) a
                             finding that, at the time of the audit, such cost is not
                             supported by adequate documentation; or (3) a finding
                             that the expenditure of funds for the intended purpose
                             is unnecessary or unreasonable.

Unsupported Cost             means a cost that is questioned by the Office because the
                             Office found that, at the time of the audit, such cost is not
                             supported by adequate documentation.

Disallowed Cost              means a questioned cost that management, in a management
                             decision, has sustained or agreed should not be charged to the
                             Government.

Recommendation that          means a recommendation by the Office that funds could be
funds be put to better       used more efficiently if management of an establishment
use                          took actions to implement and complete the recommendation,
                             including: (1) reduction in outlays; (2) deobligation of funds
                             from prgrams or operations; (3) withdrawal of interest
                             subsidy costs on loans or loan guarantees, insurance, or
                             bonds; (4) costs not incurred by implementing recommended
                             improvements related to the operations of the establishment,
                             a contractor or grantee; (5) avoidance of unnecessary
                             expenditures noted in preaward reviews of contract or grant
                             agreements; or (6) any other savings which are specifically
                             identified.




                                           26
                            ig
               October 2004 SemiAnnual Report




Special thanks to the Office of Information Technology Services
               for the production of this report:




                              27
  If you suspect Fraud, Waste, Abuse, or other misconduct at the
       International Trade Commission, please contact us at:

                      IGHotline@usitc.gov
                               or
                  EthicsLine 1--800--500--0333
                               or
              http://www.usitc.gov/oig/oighot.htm

The EthicsLine is available 24 hours per day. The caller can remain
  anonymous. If you prefer, you may send written complaints to:

             U.S. International Trade Commission
                   Office of Inspector General
                             Room 515
                        500 E Street, S.W.
                     Washington, DC 20436

Federal employees are protected from reprisal under the provisions
of the Whistleblower Protection Act of 1989. For more information,
 see the MSPB publication entitled “Questions and Answers About
  Whistleblower Appeals”, which is available in the Main Library,
               the Office of Personnel, and the OIG.
